OBJECTIVE

The objective of this survey is to determine the extent of use and compliance with the SDLC at
the Commission. Fieldwork on this survey was initiated in September 2002.


BACKGROUND

The Commission’s Systems Development Lifecycle was developed as a cooperative effort
between representatives from the Office of Inspector General (OIG), Information Technology
Center (ITC), and Commission Bureaus and Offices. The development effort began in July 1998
and ended with the implementation of the SDLC during the last quarter of calendar year 2000.
The development team began researching numerous commercial off the shelf (COTS) SDLC
packages to determine whether one existed that could be tailored to meet FCC specific standards.
Research included reviewing SDLCs within other government agencies. To accomplish this, the
team sent a development methodology-specific questionnaire to 50 agencies to determine many
factors, including what development approach was used, which COTS packages are used, and
the rate of successful development projects.
Numerous planning meetings were held in which a model was developed and the activities,
tasks, and roles were narrowed, modified, and tailored to meet the FCC’s specific developmental
requirements. After the basic framework of the SDLC was developed, the methodology was
"piloted" on a series of development efforts to evaluate its usefulness prior to implementation.
The FCC SDLC materials (i.e., SDLC phases, checklists, glossary, user guide and policy) can be
found at the Commissions SDLC Intranet website.


SCOPE OF SURVEY WORK PERFORMED

This project was conducted as a survey. A survey is preliminary audit work done before an audit
and is not an audit conducted in accordance with Government Auditing Standards (i.e., GAO
“Yellow Book” standards). The purpose of a survey is to gather general working information on
important aspects of an entity, activity, or program, such as the SDLC, and to determine the
nature and extent of any subsequent audit effort.

The purpose of this particular survey was to examine the use of the SDLC, report the results to
the Inspector General, and recommend the next course of action. To meet this goal, this survey
had a series of milestones. The first milestone was to document the SDLC coverage being
currently given in the OIG’s information system (IS) audits. Particular attention was given to
OIG audits that have already surveyed the use of SDLC in the Commission. If the SDLC
coverage in OIG audits was deemed adequate, then no further field work would be deemed
necessary.

If OIG coverage is not adequate, the next goal would be to analyze SDLC usage at the FCC. If
necessary, this will be done using a survey form. If the large majority of projects are using the
                                             2
SDLC, or acceptable substitutes, then no further field work would be deemed necessary.


The final milestone was to determine if any aspects of the SDLC need further OIG involvement
and review. The survey report will recommend what, if any, additional action the OIG should
take on the SDLC and SDLC usage.

To accomplish the objectives of this survey, the OIG auditor used the following methodology.
An auditor reviewed SLDC information, including documentation policy, practices, roles and
responsibilities, templates, checklists, and the user guide. Also, an auditor interviewed
employees in other Bureaus and Offices, such as the Office of the Managing Director (OMD).
ITC documentation related to the SDLC was analyzed. Other Bureau and Office data, especially
copies of systems development checklists, were part of the review. Federal government
documents, including Office of Management and Budget (OMD) circulars, were reviewed.
Finally, an OIG auditor interviewed contractors involved in reviewing the SDLC during OIG
audits.


SUMMARY OF OBSERVATIONS

As part of the survey process, we evaluated the Commission’s use of the SDLC to identify areas
where weaknesses or inefficiencies exist which may require more comprehensive audit coverage.

Review of the SDLC

The first step was to review the SDLC itself. The SDLC is a measurable improvement over the
prior practices that existed. Previous to the SDLC, some projects did not use rigorous
development criteria. This caused project delays and cost overruns.

The FCC’s SDLC is a comprehensive set of documents. It includes a user guide, policy and
practice manuals, a delineation of roles and responsibilities, a frequently asked questions (FAQs)
section, checklists, and templates. The two most important documents are the checklists and the
templates. The checklists describe the six phases comprising the SDLC and links to templates
for associated deliverables, such as the application’s configuration management plan. The
templates allow a project manager to keep a record of the SDLC tasks preformed.

The SDLC, as promulgated, is sufficient for systems development at the Commission.

Past SDLC Audit Coverage

The next step was to review coverage of the SDLC in OIG audits. The SDLC audit coverage
was extensive. Both financial and information systems (IS) audits covered the SDLC. The
audit of the financial statements for Fiscal Year (FY) 2001 reviewed the use of the SDLC on the
Revenue Accounting and Management Information System (RAMIS). The financial audit team
wrote a finding requesting that the management adopt the FCC’s SDLC methodology for IT
                                            3
systems in the RAMIS project. The FY 2002 financial statement audit also reported an SDLC
non-compliance finding.

A number of OIG IS audits reviewed the use of the SDLC by a number of FCC applications.
The audit of the Automated Auctions System (AAS) reviewed how the SDLC was used by AAS.
 The review of Web Accessibility had a recommendation that accessibility be included in the
SDLC. The follow-up review on Web Accessibility determined that accessibility was added to
the SDLC and closed that matter. It also reviewed remediation efforts on the International
Bureau Filing and Reporting System (IBFS) that were done using the SDLC format. Finally, the
FY 2002 Report on the Government Information Security Reform Act (GISRA) Evaluation,
issued January 6, 2003, audited all applicable FCC applications for compliance to GISRA. The
review found three applications were not following the SDLC. They were the Commission
Registration System (CORES), E/MTS, and the Cable Operation and Licensing System
(COALS).


Future SDLC Audit Coverage

The OIG plans to perform a number of IS audits that include SDLC reviews. In FY 2004, the
Integrated Spectrum Auctions System (IFAS) is planned to be reviewed. One of the objectives
of this review is to monitor and assess compliance of IFAS with the Commission’s systems
development life cycle (SDLC). Another audit budgeted for in FY 2004 is the COALS
application review. This is one of the three systems not using the SDLC.

In FY 2005 two application reviews are budgeted: Universal Licensing System (ULS) and
CORES. CORES is one of the three systems not using the SDLC. Both will include SDLC
reviews.


CONCLUSION

Based on the results of this survey, the Office of Inspector General should not perform any
additional audit work on the use of the SDLC in the Commission. Instead, the OIG should focus
continue performing SDLC work as part of its future IS audits. An audit of the use of the SDLC
would just reiterate the findings of a number of audits, only in more detail. Further audit work
by the OIG solely on SDLC usage would most likely duplicate the audit work currently being
done on IS and financial audits. For example, it would duplicate the work performed during the
FY 2002 GISRA review. Also, this duplicative review would be costly, if contracted.

Therefore, we conclude that audit coverage planned in future application reviews will provide
sufficient oversight of SDLC implementation.




                                            4
